LEGAL SERVICESCORPORATION

        BOARD OF DIRECTORS'

 SEMI-ANNUAL
           REPORT TO THE CONGRESS




     Decisions, Final Actions, and Comments
      on the OfEce of Inspector General's
      Semi-Annual Report to the Congress


                    -
       April 1,1996 September 30,1996




                                              November 30,1996
                                      FORWARD

      I am pleased to transmit the report of the Legal Services Corporation ("LSC" or
"Corporation") regarding the Semiannual Report of LSC's Office of Inspector General
("OIG") for the six-month period of April 1, 1996 through September 30, 1996.

      The Corporation's Board of Directors ("Board") recognizes the value of the Inspector
General function and remains committed to working with the Inspector General to achieve
our god of providing high @ty    legal assistance to the poor of our nation.




                                                ~ e g s&ces
                                                      d     Corporation        1


November 30,1996
                                TABLEOF CONTENTS


Message of the ~ o s r dof ~ i r e c t o n ...................................... 1



                                    ................................... 3
      The Legal S e ~ c e Corporation
                          s
      Grant-Maldng Activities ..........................................3



      Regulatory ~ e v i e w   ............................................. 4
      Competition ..................................................... 4
      Technology ..................................................... 6
      Personnel policies ..................................................6
Program Integrity   .................................................... 7
            Status of Findings and Recommendations ......................... 7
            Inspection on the Usage of Government-Sponsored AmEx Cards ....... 7
            Corporation's Annual Financial Statement Audit . . . . . . . . . . . . . . . . . . . . 7


TABLE
    1:     Management Report on OIG Audit Reports of Grantees Issued with
      Questioned Costs for the Six-Month Period Ending September 30. 1996 ..... 8

TABLE
    2: Management Report on Audit Reports Issued During
     the Six-Month Period Ending September 30. 1996. With
     Recommendations That Funds Be Put to Better Use ..................... 10
       Under the heading, Inspector G e n d s Message, the Office of Inspector General's
                                                       -
Semi-AnnualReport for the period of April 1, 1996 September 30, 1996 ("the Report")
suggests that implementation of the Inspector General Act ("the A&) at the Legal Services
Corporation ("LSC" or "Corporation") has not been completed because the Board of
Directors, as head of the entity, raised certain questions concerning the provisions of the Act
and the underlying intent of the Congress. The Inspector G e n d has apparently
misunderstood the fiduciary obligation of the Directors to assure themselves that all
components of the Corporation are operated within the parameters of relevant statutory
provisions.

       The first specific issue raised in the Report concerns a question about the role of the
Board in the formulation of an Audit Guide. See also page 3 of the Report. The question
involved the interplay between the "guidance" role conferred on the Inspector General by $
509(a) of P.L. 104-134, which became law on April 26, 1996, and the statutory role of the
Board as head of the entity under § 8G(d) of the Act.

       In the past, the Board had always been the final i n t d authority on the content of
the audit guide an4 in light of its continuing role as head of the entity and as the body
charged with generally supervising the Corporation's Inspector General, the Board sought
to be clear on what the respective roles now are with regard to revision of the audit guide.
As the Report indicates @.3), the Board received the requested guidance, accepted it, and the
issue was resolved without M e r Board action. The Audit Guide was published on October
22, 1996, in the form proposed by the Inspector General.

        The next question concerned the extent of the authority of the Inspector General in
personnel matters. At the recommendation of the Inspector General, management undertook
to prepare a completely revised Personnel Manual. In pursuing this endeavor, it contracted
with the Office of Personnel Management for wistance. (See page 6, i*.) When the draft
Personnel Manual was presented to the Board for its consideration, several questions were
raised.

      There was general agreement that under Setion 8G(g)(2) of the Act the Inspector
General has full authority to hire and dismiss members of his office. However, questions
were raised and not completely resolved concerning the extent of the Inspector General's
authority over other aspects of their employment, such as wages and salaries, hours of
employment, working conditions, vacations, health insurance and other benefits and terms
of employment which have Gcal and legal liability implications for the Corporation, as well
as potential problems resulting fiom the existence of divergent personnel policies between
two groups of employees that work together and make up the Corporation's relatively small
work force. Discussions to resolve such matters are ongoing.

       Three other sets of questions noted in the Report arose in connection with a matter
which the Inspector General brought to the Board, but which is mentioned only briefly in the
Report (at p. 9). In       the Inspector General published a report titled "Increasing Legal
Services Delivery Capacity Through Information Technology." Its evident purpose was to
recommend policies to promote economy and efficiency in program financed by the
Corporation. The Report set forth four recommendations for increasing the ability of
Corporation-funded grantees to increase the number of clients served. It recommended proof
of concept evaluations to determine the extent of benefit to be derived fiom each.

       The Inspector Generalreported to the Board at its S e p t e 30th meeting that he had
determined to embark on a proof of concept evaluation of one, or a combination of two, of
these, that he had discussed implementation with other Federal agencies as possible co-
sponsors, and that he was about to sign a contract for several hundred thousands of dollars
for that purpose. (The Report, at p. 9, states that ''preliminary work on this project has
begun.") The Board raised questions concerning the basis and nature of the contract and the
funding available to pay for it.

       While acknowledging the Inspector General's authority and responsibility to
recommend policies and to seek economy and efficiencyin the administration of LSC-funded
programs, the Board raised questions concerning the basis for implementing the alternative
selected by the Inspector General rather than others. Subsequently, a question has arisen as
to whether the proposed evaluation project, which involves delivery of legal services to
clients, is a programmatic activity which the Inspector General is barred by law from
conducting. At the Board's direction, LSC management is engaged in a number of initiatives
concerningthe use of technology to reach unserved clients and to improve the efficiency and
effectiveness of the delivery of legal services. (See p. 6, injka.) Efforts are continuing to
obtain answers to the questions raised by the Board in its oversight capacity.

        This said, let there be no doubt that the Board continues to work with its Inspector
General in seeking to maintain 111implementation at the Corporation of both the letter and
spirit of the Inspector General Act and its amendments.
The Legal Semces Corporation
       The Corporation is a private, non-profit corporation established in the District of
Columbia by the Legal Services Corporation Act of 1974, as amended ("the LSC Act"),' to
provide financial support for legal assistance in non-criminal proceedings to persons unable
to afford legal services. Under the LSC Act, the Corporation is governed by an eleven-
member Board of Directors appointed by the President of the United States, with the advice
and consent of the Senate. The Board appoints the President of the Corporation, who serves
as the Corporation's chief executive officer, subject to general policies established by the
Board.

       The 1988 Amendments to the Inspector General Act of 1978 extended specific
provisions of the 1978 Act to LSC and required LSC to establish an Office of Inspector
General ("OIG"). Accordingly, such an office was established by and for the Corporation.
The Inspector General is appointed by, reports to and serves under the general supervision
of the Corporation's Board of Directors.

Grant-Making Activities
        To carry out the purposes of the LSC Act, Congress appropriated the Corporation
$278 million for fiscal year 1996 (Pub. L. 104-134), with which the Corporation funded 28 1
legal services programs to provide legal assistance to indigent persons throughout the 50
states, the Distxict of Columbia, Puerto Rico, the U.S. Virgin Islands and Micronesia




        42 U.S.C. $3 2996 - 29961.
                          MANAGEMENT m T I V E S
       During the reporting period, the Corporation focused much of its energy on two
principal areas: the administration of a comprehensive competitive system for the award of
grants for calendar year 1997 for the delivery of legal services to eligible clients, and the
implementation of a broad array of new statutory requirements and restrictions. The
Corporation also devoted its attention to additional initiatives in the areas of technology and
personnel policies.


Competition

       During the reporting period, the Corporation undertook the second process for
awarding grants and contracts under a system of competitive bidding. Notification of the
availability of funds was accomplished by publication in the Federal Register, newspapers
and bar associationjournals, and by personal letters sent to governors, IOLTA directors and
existing legal services providers. A revised Request for Proposals was published on June 20,
1996 with proposals due August 21, 1996. In response, 324 organizations and fhms filed
a Notice of Intent to Compete. Ultimately, 291 competitive applications were filed to
provide legal assistance to low income persons in all 50 states, the District of Columbia,
Puerto Rico, the U.S.Virgin Islands, Guam and Micronesia. More than one competitor is
seeking funds in 36 of LSC's currently defined service areas. At this date all 291
competitive applications are being carefully reviewed pursuant to the previously adopted
regulation governing competition.


Regulatory Review

       To implement new restrictions contained in the legislation appropriating funds to the
Corporation for &mil year 1996, the Corporation promulgated a number of new regulations,
revised others and commenced enforcement of the new restrictions. The enactment of Pub.
L. 104-134 provided definitive legislative direction to the Board with regard to the
reqyirements and restrictions imposed on LSC grantees if they are to receive LSC funds. The
Board continues to give highest priority to the prompt and full implementation and
enforcement of the new requirements and restrictions imposed by that legislation.

       The Board had anticipated those requirements by adopting three regulations in
advance of the new appropriation. All three became effective on May 1,1996. One requires
timekeeping by the Corporation's grantees, another restricts grantees' representation of
individuals in certain drug-related public housing evictions and the third implements a
system of competition for the award of grants and contracts for the delivery of legal
assistance to eligible clients. On July 20, 1996, the Board adopted 14 regulations, which
became effective immediately upon publication as emergency, interim regulations, and
approved f$ comment proposed revisions to a 15th regulation. The 15 regulations are as
follows:
      1.      45 CFR Part 1610:Use of non-LSC funds (interim2)

      2.      45 CFR Part 1612: Restrictions on Lobbying and Certain Other Activities (in*)

      3.      45 CFR Part 1617: Class actions (interim)

      4.      45 CFR Part 1620: Priorities in Use of Resources (interim)

      5.      45 CFR Part 1626: Restrictions on Legal ~ssist&e to Aliens (in*)

      6.      45 CFR Part 1627: Subgnmts and Dues (interim)

      7.      45 CFR Part 1632: RecWicting (interim)

      8.      45 CFR Part 1633: Restriction on Representation in Certain Eviction Proceedings (interim)

      9.      45 CFR Part 1636: Client Identity and Statement of Facts (interim)

      10.    45 CFR Part 1637: Representation of &nm         (interim)

      1 1.    45 CFR Part 1638: Restriction on Solicitation (inteak)

      12.     45 CFR Part 1639: Welfare Reform (interim)

      13.     45 CFR Part 1640: Application of Federal Law to LSC Recipients ( i t h m )

      14.     45 CFR Part 1642: Attorneys' Fees (interim)

      15.     45 CFR Part 1609: Feegenerating cases (proposed).

       Thereafter, on September 30, 1996, the Board of Directors adopted final versions of
four of the interim rules: namely, Parts 1610, 1617, 1632 and 1633. The anticipated
effectivedate of these four rules is January 1, 1997. The Board's Operations & Regulations

        Qerim rules are authorized when there is a need for prompt guidance on how to comply with
sub-         revised legislative requirements and it is detemhed that prior notice and public comment
are impracticable, unnectsmy, or contrary to the public interest. See 5 U.S.C.553(b)(3)@) and 553
(d)(3). Although the interim rules were effective upon publication, they requested public comment
for consideration by the Corporation in anticipation of publishing final rules in the near future.
Committee is expected to consider public comment on the rest of the rules on December 13
and 14,1996, and the Board is expected to consider recommendations for final versions of
these rules at its January 1997 meeting.

       The OIG, as well as the interested public, worked closely with the Board and
Corporation's staff on all these regulatory efforts.


Technology

        Within the limits of its available h c i a l resources, the Corporation is continuing its
efforts concerning the use of technology to reach unserved clients and to improve the
efficiency
     . .    and effectiveness of the delivery of legal senices and the management and
admumtmtion of the Corporation. Current initiatives include the promotion of centralized
telephone intake and delivery systems (Hotlines) by grantees and the up@g                 of the
Corporation's information system to facilitate reporting by grantees and efficient grant
making by the Corporation.


Personnel Policies

       The Corporation is also continuing its undertaking to thoroughly revise its personnel
policies and procedures, with the assistance of consultants fiom the Office of Personnel
Management ("OPW). hrring this reporting period, a proposed revision of the
Corporation's Personnel Manual was presented to the Board, and those parts requiring
immediate implementation were approved.
                                               TABLE 1

                                 Management Report
                                         on
                   Office of Inspector General Audits of Grantees
                            Issued With Questioned Costs
                For the Six-Month Period Ending September 30,1996


                                                Number of         Questioned              U D S U P ~
                                                                      Costs                  Costs

A. Audit Reports for grantees an which no
   management decision had been made by the
   cmmemment of the reporting period              l3

B. Audit Reports issued chning the reparting
   period                                         0

   Subtotals (A +B)                               1                  $4,627                    $0



C. Audit Report. for which a management
   decision was made duringthe reporting
   period:                                        1

        0       dollar value of the
                recommendations that



        90clarifjany possible confkion, it should be noted that although the OIG's previous Semi-
AnnualReport to Congress did not show any audit reports for which management had not reached
a decision by the end of the reporting period (October 1, 1995 - March 3 1, 1996), there was in f
                                                                                                kt
one such report. It involved a grantee in Louisiana and is as reported on this Table.
        "The Report (of the OIG) reports this item as being $6,557. However, that figure combines
the $4,627 that the OIG recommended be questioned and $1,927 of additional possible questioned
costs independently identified by management. (The two actually total $6,554, instead of $6,557.)
Sincethis table is restricted to OIG Audits, the figure that should be reported is $4,627, and so it is
reported here.
                                              Number of          Questioned            unsupported
                                                                    Costs                 Costs


               were agreed to by
               management

       (ii)    dollar value of the
               recommendations that
               were not agreed to by
               management                       1

D. Audit Reports for which no management
   decision had been made by the end of
   the reporting period.                        0

   Audit Reports for which no management
   decision had been made within six months
   of issuance.                                 0




       'Ofthe $4,627 that the OIG Audit proposed be questioned and disallowed, after reviewing
the responses and documentation submitted by the grantee, management allowed $4,039 and
disallowed $588. The $2,254 figure reported in the Report of the OIG includes this figure and
$1,666 in disallowed costs of the $1,927 of additional questioned costs independently identified by
management.

       6This represents the portion of the $4,627 questioned by the OIG Audit which after care11
review, management found to be appropriately explained and documented by the grantee at issue.
                                            TABLE 2

            Management Report on Audit Reports Issued During
              the Six-Month Period Ending September 30,1996
           With Recommendations That Funds Be Put to Better Use

                                                         Number of   Dollar
                                                                     Value

A.   Audit Reports for which no management
     decision has been made by the comma-t
     of the reporting period.                              0

B.   Audit Reports issued during the reporting period.     0          $0

     Subtotals (A + B)                                     0          $0




C.   Audit Reparts for which a management decision
     was made during the repenting period:                 0

     (I)
       dollar value of recamendations that were
       agree-to by m a n a w t                             0
     (ii) dollar v a h of remnmendations that were not
          agreed to by management                          0

     Audit Reports for which no management decision
     had been made by the end of the reporting period.     0

     Audit Reports for which no management decision
     had been made within six months of issuance.          0
